                                 Report No. 07-INTEL-09
                                          June 27, 2007




The Threat and Local Observation Notice
       (TALON) Report Program
  Additional Copies

  To obtain additional copies of this report, contact Mr. Sean Mitchell at
  (703) 604-8815 (DSN) 664-8815 or Mr. Donald A. Ragley at (703) 604-8965.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Intelligence at (703) 604-8800 (DSN 664-8800) or fax
  (703) 604-0045. Ideas and requests can also be mailed to:

                Office of the Deputy Inspector General for Intelligence
                      ODIG-INTEL (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                          400 Army Navy Drive (Room 703)
                              Arlington, VA 22202-4704




Acronyms
CIFA                  Counterintelligence Field Activity
FISA                  Foreign Intelligence Surveillance Act
JPEN                  Joint Protection Enterprise Network
TALON                 Threat and Local Observation Notice
UCSC                  University of California, Santa Cruz
USD(I)                Under Secretary of Defense for Intelligence
USNORTHCOM            U.S. Northern Command
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                            June 27, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               COMMANDER, U.S. NORTHERN COMMAND
               DEPUTY UNDER SECRETARY OF DEFENSE
                 (COUNTERINTELLIGENCE AND SECURITY)
               DIRECTOR, COUNTERINTELLIGENCE FIELD ACTIVITY

SUBJECT: The Threat and Local Observation Notice (TALON) Report Program
         (Report No. 07-INTEL-09)


        We are providing this report for your infonnation and use. We performed the
audit in response to congressional requests. The Counterintelligence Field Activity
provided comments. We considered management comments on the draft of this report
when preparing the final report. The complete text of the comments is in the
Management Comments Section of the report.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lois A. Therrien at (703) 604- I6 I3 (DSN 332- I613). See Appendix K for the
report distribution. The team members are listed inside the back cover.




                                     ~~l7
                                       Deputy Inspector General
                                           for Intelligence
                    Department of Defense Office of Inspector General
Report No. 07-INTEL-09                                                                 June 27, 2007
      (Project No. D2006-DINT02-0128.000)

                       The Threat and Local Observation Notice
                             (TALON) Report Program

                                       Executive Summary

Who Should Read This Report and Why? All DoD officials involved in the Threat
and Local Observation Notice (TALON) report program and all intelligence,
counterintelligence, law enforcement, and force protection personnel should read this
report. The report addresses the TALON report program as initially established and as
currently implemented.

Background. We performed this audit in response to requests from Congresswomen
Zoe Lofgren, on December 30, 2005, and Anna G. Eshoo, on January 12, 2006, on media
reporting that DoD had developed and maintains a database for information on U.S.
persons conducting domestic anti-war and counter-military protests and demonstrations.

The Air Force Office of Special Investigations developed the TALON report format in
2001 for its Eagle Eye Program, a neighborhood watch program to detect and report
suspicious activity of possible targeting of Air Force interests by terrorists. The TALON
report program was instituted DoD-wide on May 2, 2003, by Deputy Secretary of
Defense memorandum, “Collection, Reporting, and Analysis of Terrorist Threats to DoD
Within the United States,” because DoD had no formal mechanism to collect and share
non-validated domestic threat information between intelligence, counterintelligence, law
enforcement, and force protection entities and to analyze that information for indications
of foreign terrorist activity. A TALON report consists of raw information reported by
concerned citizens and military members about suspicious incidents. The memorandum
also directs that TALON reports be provided to the DoD Counterintelligence Field
Activity for incorporation into a database repository. The Counterintelligence Field
Activity is a designated DoD law enforcement and counterintelligence organization and
serves as the bridge between intelligence related to international terrorism information
and domestic law enforcement information. In addition, the Commander, U.S. Northern
Command’s mission is to deter, prevent, and defeat threats and aggression aimed at the
United States, its territories, and interests within its area of responsibility.

Results. The Counterintelligence Field Activity and the U.S. Northern Command legally
gathered and maintained U.S. person information on individuals or organizations
involved in domestic protests and demonstrations against DoD.

           •   TALON reports were generated for law enforcement and force protection
               purposes as permitted by DoD Directive 5200.27,1 and not as a result of an


1
    DoD Directive 5200.27, “Acquisition of Information Concerning Persons and Organizations Not
    Affiliated with the Department of Defense,” January 7, 1980.
               intelligence collection operation; therefore, no violation of the Foreign
               Intelligence Surveillance Act occurred.

           •   The Counterintelligence Field Activity did not comply with the 90 day
               retention review policy required by DoD Directive 5200.27. We could not
               determine whether the U.S. Northern Command complied with the policy
               requirement because all TALON reports were deleted from their database in
               June 2006 with no archives.

           •   The Cornerstone database that the Counterintelligence Field Activity used to
               maintain TALON reports did not have the capability to identify TALON
               reports with U.S. person information, to identify reports requiring a 90-day
               retention review, or to allow analysts to edit or delete the TALON reports.

As a result, the Counterintelligence Field Activity maintained TALON reports without
determining whether information on organizations and individuals should be retained for
law enforcement and force protection purposes.

       Distribution of Reports. We reviewed the 1,131 TALON reports that the
Counterintelligence Field Activity deleted from the Cornerstone database from
December 2, 2005, through January 18, 2006.2 The Cornerstone database included about
13,000 TALON reports. Of the 1,131 TALON reports:

           •   117 reports originated outside the United States and did not contain
               information on U.S. persons,

           •   263 reports were related to protests and demonstrations, and

           •   751 reports did not relate to protests and demonstrations.

      Further analysis of the 263 TALON reports for protests and demonstrations
showed that:

           •   157 reports discussed an action or event that took place, and

           •   75 of the 157 reports had criminal actions occur that resulted in arrests,
               required court appearances, violence, destruction, and required police
               intervention.

        The 75 TALON reports for protests and demonstrations on actions or events with
criminal actions demonstrate the value of the TALON reports for law enforcement and
force protection purposes.




2
    As of April 2007, 5,231 TALON reports had been deleted from the Cornerstone database. The reports no
    longer had any analytical value because they were resolved or they were determined to have no potential
    terrorism connection, or the reports were on anti-DoD protests. TALON reports were not deleted
    specifically for containing U.S. person information; instead, the U.S. person information was deleted
    from the report.



                                                      ii
       U.S. Person Information and U.S. Persons Identified. We also reviewed the
1,131 TALON reports to identify U.S. person information3 and determined the number of
U.S. persons4 identified. Of the 1,131 TALON reports:

           •    334 reports contained U.S. person information:

                − 142 U.S. persons were identified on 92 protest and demonstration TALON
                  reports, and

                − 429 U.S. persons were identified on 242 TALON reports for other than
                  protests and demonstrations; and

           •    797 reports did not contain U.S. person information.

Management Actions. The number of TALON reports being created has dropped
significantly since the Deputy Secretary of Defense issued the March 30, 2006,
memorandum, “Threats to the Department of Defense.” The memorandum designates
that the TALON Reporting System should report information for possible international
terrorist activity only and be retained as intelligence information under DoD
Regulation 5240.1-R,5 rather than law enforcement information.

On October 12, 2006, the Deputy Secretary of Defense issued a memorandum, “DoD
Integrated Threat Reporting Working Group,” designating the Assistant Secretary of
Defense (Homeland Defense) as the principal staff assistant for reporting force protection
threats. The Assistant Secretary was tasked to develop Departmentwide guidance for
documenting, storing and exchanging force protection information. The Under Secretary
of Defense for Intelligence was tasked to convene a separate working group to discuss
law enforcement equities.

In April 2007, the Under Secretary of Defense for Intelligence requested that the
Secretary of Defense terminate the TALON program because the results of the last year
do not merit continuing the program as currently constituted, particularly in light of its
image in the Congress and the media.

As a result of ongoing management actions, we are not making any recommendations.

Management Comments. We provided a draft of this report on May 18, 2007.
Although no written response to this report was required, the Counterintelligence Field
Activity stated that they anticipate the TALON program will be terminated. However,
the report will assist the Assistant Secretary of Defense (Homeland Defense) in crafting
an efficient and effective suspicious activity reporting system.




3
    Any information that pertains to a U.S. person is U.S. person information; however, if a U.S. person is
    not identified, the same information is not U.S. person information.
4
    The types of U.S. persons identified are individuals, organizations, and businesses.
5
    DoD Regulation 5240.1-R, “Activities of DoD Intelligence Components That Affect United States
    Persons,” December 1982.



                                                       iii
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 3

Finding
     Reports for Protests and Demonstrations and Reports Containing U.S.
     Person Information                                                    5

Appendixes
     A.   Scope and Methodology                                            15
     B.   Congressional Request from Congresswoman Zoe Lofgren             17
     C.   Congressional Request from Congresswoman Anna G. Eshoo           20
     D.   Response to Congresswoman Lofgren                                23
     E.   Response to Congresswoman Eshoo                                  29
     F.   Deputy Secretary of Defense May 2, 2003, Memorandum              30
     G.   Deputy Secretary of Defense March 30, 2006, Memorandum           32
     H.   Deputy Secretary of Defense October 12, 2006, Memorandum         34
     I.   Deputy IG for Intelligence June 20, 2006, Memorandum             38
     J.   Director, Joint Staff July 24, 2006, Memorandum                  40
     K.   Report Distribution                                              41

Management Comment
     Counterintelligence Field Activity                                    43
Background
    We performed this audit in response to congressional requests from
    Congresswomen Zoe Lofgren, on December 30, 2005, and Anna G. Eshoo, on
    January 12, 2006, on media reports that DoD developed and maintains a database
    for information on U.S. persons conducting domestic anti-war and counter-
    military protests and demonstrations.

    Threat and Local Observation Notice (TALON) Report. The Air Force Office
    of Special Investigations developed the TALON report format in 2001 for its
    Eagle Eye Program, a neighborhood watch program to detect and report
    suspicious activity of possible targeting of Air Force interests by terrorists. The
    Air Force Office of Special Investigations definition states that:
           The TALON report is a law enforcement report designed to report
           anomalies, observations that are suspicious against the steady state
           context, and immediate indicators of potential threats or antiterrorism
           concerns. TALONs are raw, non-validated information, may or may
           not be related to an actual threat, and by their very nature, may be
           fragmented and incomplete.

    Deputy Secretary of Defense memorandum, “Collection, Reporting, and Analysis
    of Terrorist Threats to DoD Within the United States,” May 2, 2003
    (Appendix F), instituted the TALON report program DoD-wide. The
    memorandum states that DoD had no formal mechanism to collect and share
    nonvalidated domestic threat information between intelligence,
    counterintelligence, law enforcement, and force protection entities and to analyze
    that information for indications of foreign terrorist activity. The DoD TALON
    report was established to capture nonvalidated information on domestic threats,
    pass that information to analysts, and incorporate it into the DoD process for
    warning against terrorism. A TALON report is raw information reported by
    concerned citizens and military members about suspicious incidents. Information
    in TALON reports is not validated, may or may not relate to an actual threat, and,
    by its very nature, may be fragmented and incomplete. The purpose of the
    TALON report is to document and immediately disseminate information on
    potential threats to DoD personnel, facilities, and resources. The TALON report
    is not designed to take the place of the formal DoD intelligence reporting process.
    The framework established by the memorandum specified that the information
    contained in TALON reports is for commanders at all levels that have force
    protection responsibilities and for analysts to use in determining the aggregate
    terrorist threat to DoD people and resources.

    The May 2, 2003, Deputy Secretary of Defense memorandum also directed that
    TALON reports be provided to the DoD Counterintelligence Field Activity
    (CIFA) for the information to be incorporated into a database. CIFA is to provide
    access to the full database to the Defense Intelligence Agency, Joint Intelligence
    Task Force-Combating Terrorism to support its terrorism-warning mission.

    Homeland Defense. The U.S. Northern Command (USNORTHCOM) was
    created October 1, 2002, as a result of the terrorist attacks of September 11, 2001.


                                             1
The USNORTHCOM mission is to conduct operations to deter, prevent, and
defeat threats and aggression aimed at the United States, its territories, and
interests within its area of responsibility.

DoD Directive 2000.12, “DoD Antiterrorism (AT) Program,” August 18, 2003
(current as of November 21, 2003), assigns the Commander, USNORTHCOM the
authority to execute force protection responsibilities and the antiterrorism
program through which it will integrate those responsibilities. The directive also
provides several definitions.

       •   Domestic Terrorism. Terrorism perpetrated by the citizens of one
           country against persons in that country. Domestic terrorism also
           includes acts against citizens of a second country when they are in the
           host country and not the principal or intended target.

       •   Force Protection. Actions taken to prevent or mitigate hostile actions
           against DoD personnel (including family members), resources,
           facilities, and critical information.

       •   Physical Security. That part of security concerned with physical
           measures designed to safeguard personnel; to prevent unauthorized
           access to equipment, installations, material, and documents; and to
           safeguard them against espionage, sabotage, damage, and theft.

       •   Security Organizations. Military law enforcement, military criminal
           investigative organizations, and DoD-contracted security personnel.

       •   Terrorism. The calculated use of unlawful violence or threat of
           unlawful violence to inculcate fear and to coerce or to intimidate
           governments or societies in the pursuit of goals that are generally
           political, religious, or ideological.

The USNORTHCOM used TALON reports to assist the force protection mission.
TALON reports were maintained in the USNORTHCOM Joint Protection
Enterprise Network (JPEN).

CIFA. DoD Directive 5105.67, “Department of Defense Counterintelligence
Field Activity (DoD CIFA),” February 19, 2002, establishes CIFA as a field
organization of the Under Secretary of Defense for Intelligence (USD[I]) whose
mission is to develop and manage DoD counterintelligence programs and
functions that protect DoD. Those programs include counterintelligence support
to protect DoD personnel, resources, critical information, research and
development programs, technology, critical infrastructure, economic security, and
U.S. interests against foreign influence and manipulation, as well as to detect and
neutralize espionage against DoD. CIFA is funded as part of the National
Intelligence Program, but it is to carry out its assigned function and
responsibilities by operating as a law enforcement organization under the
authorities vested in the Secretary of Defense in title 10, United States Code.




                                     2
           However, the law enforcement responsibilities do not replace or supersede those
           responsibilities assigned to the DoD criminal investigative organizations.6

           DoD Directive 2000.12 states that the following are two of the CIFA antiterrorism
           responsibilities.

                    •   Establish a threat analysis capability designed to collect, fuse, and
                        analyze domestic law enforcement information with foreign
                        intelligence and counterintelligence information in support of the DoD
                        combating terrorism mission. CIFA, as a designated DoD law
                        enforcement and counterintelligence organization, is to support the
                        efforts of the Joint Intelligence Task Force for Combating Terrorism
                        by serving as the bridge between intelligence related to international
                        terrorism and domestic law enforcement information.

                    •   Maintain a domestic law enforcement database that includes
                        information related to potential terrorist threats directed against DoD.

           NBC News Report. On December 13, 2005, NBC News aired a report, “Is the
           Pentagon spying on Americans?” NBC reported that a secret Pentagon database
           obtained by NBC News tracks “suspicious” domestic groups, and a secret
           400-page DoD document lists more than 1,500 “suspicious incidents” across the
           country over a recent 10-month period. A small group of activists planning a
           protest of military recruiting at local high schools in Lake Worth, Florida, was
           listed as a “threat.”

           Congressional Requests. In a December 30, 2005, letter to the DoD Inspector
           General, Congresswoman Zoe Lofgren requested an investigation of recent
           allegations that the DoD had developed and maintains a database of information
           on U.S. persons, apparently collected in violation of DoD regulations and the
           Foreign Intelligence Surveillance Act (FISA). Congresswoman Lofgren’s letter
           specifically referenced the NBC News report. The letter included seven questions
           about the TALON reporting program and the authority to report and maintain the
           information; specifically, information about domestic anti-war or counter-military
           recruitment groups (protests and demonstrations). See Appendix B for the
           request from Congresswoman Lofgren and Appendix D for our response.

           Subsequently, in a January 12, 2006, letter to the DoD Inspector General,
           Congresswoman Anna G. Eshoo requested a review of the DoD activities at the
           University of California, Santa Cruz (UCSC). See Appendix C for the request
           from Congresswoman Eshoo and Appendix E for our response.




6
    The Defense Criminal Investigative Service, the Army Criminal Investigation Command, the Naval
    Criminal Investigative Service, and the Air Force Office of Special Investigations are the defense
    criminal investigative organizations.



                                                      3
Objectives
    We performed the audit in response to congressional requests. Our overall objective
    was to examine “allegations that the Department of Defense (DoD) has developed
    and maintains a database of information on U.S. persons, apparently collected in
    violation of DoD regulations and the Foreign Intelligence Surveillance Act (FISA).”
    We focused our efforts on TALON reports related to protests and demonstrations.
    See Appendix A for a discussion of the scope and methodology and prior coverage.

    We found no evidence that FISA applied to the TALON reporting process.
    Further discussion is included in Appendix D.




                                        4
            Reports for Protests and Demonstrations
            and Reports Containing U.S. Person
            Information
            CIFA and USNORTHCOM legally gathered and maintained information
            on organizations and individuals, including U.S. citizens, involved in
            domestic demonstrations against DoD. We found no evidence that the
            effort was the result of an intelligence collection operation. Rather, the
            TALON reports on protests and demonstrations were generated for law
            enforcement and force protection purposes, which is permitted under DoD
            Directive 5200.27.

            While CIFA did not violate the law in getting or maintaining information
            related to demonstrations, it did not follow the information retention
            criteria in DoD Directive 5200.27, which require such information to be
            destroyed within 90 days unless retention is required by law or
            specifically authorized under criteria established by the Secretary of
            Defense. We could not determine whether USNORTHCOM complied
            with the DoD 90-day retention review policy because all TALON reports
            were deleted from JPEN on November 30, 2005, without being archived,
            and the system was turned off in June 2006.

            CIFA retains TALON reports on its Cornerstone database. The
            Cornerstone database initially could not identify TALON reports with
            U.S. person information, identify reports requiring a 90-day review, or
            allow analysts to edit or delete the TALON report. Only CIFA
            information technology personnel had the ability to delete TALON
            reports. As a result, CIFA maintained TALON reports without
            determining whether information on organizations and individuals should
            be retained for law enforcement and force protection purposes.

            Our detailed review of 1,131 TALON reports removed from the CIFA
            database showed that 263 reports pertained to protests and demonstrations.
            Of the 263 reports, 157 reports discussed actual actions or events that
            occurred. Further, 75 of the 157 reports on actual actions or events
            resulted in reported arrests, required court appearances, violence,
            destruction, and police intervention. The 75 TALON reports demonstrate
            that they are necessary to inform local commanders of protests and
            demonstrations planned for their vicinity for law enforcement and force
            protection purposes, and not as intelligence information.


Criteria for Gathering and Retaining Information on
  U.S. Persons
     The TALON reports were generated for law enforcement and force protection
     purposes. We found no evidence that the U.S. person information for
     organizations and individuals that were not affiliated with the DoD resulted from


                                         5
an intelligence collection operation. Therefore, the TALON reports were
maintained as law enforcement information and were subject to
DoD Directive 5200.27, “Acquisition of Information Concerning Persons and
Organizations Not Affiliated with the Department of Defense,” January 7, 1980.

DoD Gathering U.S. Person Information for Law Enforcement and Force
Protection Purposes. DoD Directive 5200.27 establishes general policy for
collecting, processing, storing, and disseminating information on persons not
affiliated with DoD. DoD Components are authorized to gather information that
is essential for protecting DoD functions and property, personnel security, and
operations related to civil disturbance. It specifies that nothing in the directive
should be interpreted as prohibiting prompt reporting to law enforcement agencies
of any information that might threaten life or property, or violate law, or prohibit
keeping a record of such a report. The directive specifically prohibits:

       •   gathering U.S. person information on organizations or individuals not
           affiliated with the DoD beyond that which is essential to accomplish
           assigned DoD missions;

       •   gathering information on U.S. persons solely because they oppose
           Government policy;

       •   covert or deceptive surveillance or penetration of civilian
           organizations unless specifically authorized; and

       •   assigning DoD personnel to attend public or private meetings,
           demonstrations, or other similar activities for the purpose of gathering
           information.

DoD Gathering U.S. Person Information for Intelligence Purposes. DoD
Regulation 5240.1-R, “Activities of DoD Intelligence Components That Affect
United States Persons,” December 1982, applies only to DoD intelligence
components and does not apply to law enforcement activities that may be
undertaken by the DoD intelligence components. However, when a DoD
intelligence component’s investigation or inquiry establishes reasonable belief
that a crime has been committed, the intelligence component refers the matter to
the appropriate law enforcement agency or, if the intelligence component is
authorized to conduct law enforcement activities, it continues the investigation
under appropriate law enforcement procedures. The regulation specifies that
information that identifies a U.S. person may be collected if it is necessary to
conduct a function assigned to the collecting component, and if the information
falls under the 13 categories. The following four categories are pertinent to
TALON reports.

       •   Information Obtained With Consent,

       •   Publicly Available Information,

       •   Physical Security, or

       •   Administrative Purposes.


                                      6
    DoD Retention of U.S. Person Information. DoD Directive 5200.27 requires
    U.S. person information for organizations and individuals not affiliated with the
    DoD to be destroyed within 90 days, unless retention is required by law or
    specifically authorized under criteria established by the Secretary of Defense.
    DoD Regulation 5240.1-R also contains a 90-day temporary retention clause for
    determining whether the information may be permanently retained.


TALON Reporting and Retention
    On May 2, 2003, the Deputy Secretary of Defense memorandum established the
    TALON reporting program to document and immediately disseminate potential
    threat information to DoD personnel, facilities, and resources. The memorandum
    directed that CIFA and designated “lead Components” in the Services, combatant
    commands, and Defense agencies are authorized to retain TALON information as
    necessary to conduct their analysis mission. A law enforcement database was
    needed to maintain this information, whether required by law or authorized under
    criteria established by the Secretary of Defense or his designee.

    TALON Reporting. We found no evidence to suggest that the TALON reports
    were generated as a result of intelligence activities; rather, the TALON reports
    were generated for law enforcement and force protection purposes, as permitted
    under DoD Directive 5200.27. Specifically, the TALON reports were developed
    from information provided to the security and law enforcement personnel at
    military facilities and/or intelligence personnel. The information was from
    concerned individuals such as citizens; military personnel, performing their
    official duties and as citizens; and law enforcement personnel. People are
    concerned when they hear, see, or are informed about suspicious incidents being
    planned, that happen at a military facility, or that involve military personnel, such
    as an incident at a recruiting fair.

    TALON Retention. TALON reports were primarily maintained on two
    databases, one managed by CIFA and one managed by USNORTHCOM.

             CIFA. CIFA retains TALON reports on its Cornerstone database. The
    Cornerstone database was originally created to track foreign visitors to DoD
    facilities, and it had limited analytical capabilities. The Services and other
    organizations produce the TALON reports which are integrated into the
    Cornerstone database, either manually (Army and Navy) or with an automation
    tool (Air Force). Other agencies create their TALON reports directly in the
    Cornerstone database.

            CIFA did not comply with the retention requirements of DoD
    Directive 5000.27, which require CIFA to review information on U.S. persons
    within 90 days. Prior to December 2005, CIFA did not destroy any TALON
    reports or delete any U.S. person information, including those TALON reports on
    protests and demonstrations. The Cornerstone database could not identify reports
    with U.S. person information, identify reports requiring a 90-day review, or allow
    analysts to edit or delete the TALON reports because the original requirements
    for the Cornerstone TALON application code were not developed with oversight


                                          7
    requirements in mind. Only CIFA information technology personnel had the
    ability to delete TALON reports. As a result, CIFA maintained TALON reports
    without determining whether information on organizations and individuals should
    be retained for law enforcement and force protection purposes.

            USNORTHCOM. Under DoD Directive 2000.12, the Commander,
    USNORTHCOM was given the authority to execute force protection
    responsibilities and the antiterrorism program. In June 2004, the Commander,
    USNORTHCOM selected JPEN as the database for reporting suspicious activity
    and as the primary database within USNORTHCOM for retaining TALON
    reports.

           Because all TALON reports from the NORTHCOM JPEN were deleted in
    November 2005 and the system was terminated in June 2006, we could not
    determine USNORTHCOM compliance with the 90-day requirement that U.S.
    person information be destroyed unless its retention is required by law or
    authorized by the Secretary of Defense. Appendices I and J show that the JPEN
    system was terminated due to the lack of funding when the system was transferred
    from the Joint Staff to USNORTHCOM.

    Retention Legality. CIFA was legally allowed to possess and retain information
    on U.S. persons. The information was obtained and used for legitimate law
    enforcement purposes. Law enforcement purposes included force protection of
    DoD personnel, equipment, and facilities. We determined that the information
    was not collected for intelligence or counterintelligence purposes. CIFA did not
    use the information in an attempt to monitor First Amendment activities of U.S.
    persons. We did determine that, during the early stages of the TALON program,
    CIFA was not reviewing the U.S. person information as part of a 90-day review
    requirement cited in DoD Directive 5200.27. However, failure to conduct the
    90-day review was not illegal; it was a regulatory violation. CIFA was not
    intentionally engaged in any illegal, unauthorized, or restricted activity to monitor
    the lawful actions of U.S. persons. CIFA has since put systems in place to
    conduct 90-day reviews in every case.


DoD Review of the TALON Reports
    As a result of the concerns raised by the NBC News reports and other media
    reporting, the Deputy Secretary of Defense issued a memorandum, “Retention
    and Use of Information for the TALON System,” January 13, 2006, which
    directed that the Director, CIFA advise the USD(I) by January 17, 2006, that all
    reports in the TALON database had been reviewed, and that any reports, which
    should not be in the database, had been identified. The USD(I) chartered a
    working group to review and recommend changes to policy and procedures
    employed in the TALON program to comply with DoD policy.

    CIFA Oversight Review. The review of the CIFA Cornerstone database was
    manpower intensive, since, as previously discussed, there were limited review
    capabilities inherent in the system. From December 2, 2005, through January 18,



                                          8
           2006, CIFA deleted 1,131 TALON reports7 from the Cornerstone database. New
           controls were implemented requiring review of TALON reports before entering
           them into the Cornerstone database.8 For existing TALON reports in
           Cornerstone, CIFA made various updates to the Cornerstone system, including
           Version 4.3, released in April 2006. Version 4.3 provides a select group of
           designated CIFA analysts with the ability to edit U.S. person information located
           anywhere in the TALON report; it also provides a 90-day alert flag for TALON
           reports requiring future review and a tracking mechanism for U.S. person edits.
           As a result, the designated CIFA analysts have deleted or edited U.S. person
           information.

           Report Purpose. The purpose of the TALON reports has changed. The TALON
           report program was established in May 2003 for intelligence, counterintelligence,
           law enforcement and force protection entities to record suspicious activities. A
           law enforcement database was required to maintain this information. However,
           on February 2, 2006, the USD (I) issued a memorandum which changed this
           requirement and designated the Cornerstone database as a counterintelligence
           database. The memorandum states that CIFA will maintain all TALON reports
           within the Cornerstone database, or elsewhere in CIFA, under procedures as
           specified for intelligence components in DoD Regulation 5240.1-R. Further, on
           March 30, 2006, the Deputy Secretary of Defense issued a memorandum,
           “Threats to the Department of Defense,” which states that DoD completed its
           TALON review and determined that the TALON system should be used only to
           report possible international terrorist activity, and that all TALON reports should
           be retained in accordance with DoD Regulation 5240.1-R. The memorandum
           also provided interim guidance (Appendix G).


Intelligence Oversight Review of the TALON Reporting
   System
           In the wake of concerns about the TALON reporting system, the Assistant to the
           Secretary of Defense for Intelligence Oversight conducted a review and issued a
           report, “Intelligence Oversight Review of the TALON Reporting System,”
           May 25, 2006. The report states that no single office has the authority to direct
           the Services and other reporting agencies in program execution and recommends
           that an Executive Agent be designated with the authority to issue regulations and
           prescribe procedures for the TALON reporting system. The report also states that
           there was confusion over which regulations applied to retaining information in the
           Cornerstone database. The March 30, 2006, Deputy Secretary of Defense
           memorandum provided clear direction for the DoD Intelligence Community by
           directing that the TALON reporting system should be used to report information

7
    As of April 2007, 5,231 TALON reports had been deleted from the Cornerstone database. The reports no
    longer had any analytical value because they were resolved or they were determined to have no potential
    terrorism connection, or the reports were on anti-DoD protests. TALON reports were not deleted
    specifically for containing U.S. person information; instead, the U.S. person information was deleted
    from the report.
8
    As of April 2007, CIFA had rejected 607 entries into the Cornerstone database as TALON reports.



                                                      9
    on possible international terrorist activity only, and that all TALON reports
    should be retained in accordance with DoD Regulation 5240.1-R.

    On October 12, 2006, the Deputy Secretary of Defense issued a memorandum,
    “DoD Integrated Threat Reporting Working Group,” that modifies the interim
    policy on the TALON Reporting System, March 30, 2006, based on the
    recommendations of the Acting Assistant to the Secretary of Defense for
    Intelligence Oversight. The memorandum designates CIFA as the Executive
    Agent for the TALON Reporting System (Appendix H.)


TALON Reports for Protests and Demonstrations
    From December 2, 2005, through January 18, 2006, CIFA deleted 1,131 TALON
    reports that did not meet the suspected international terrorist activity or the DoD
    Regulation 5240.1-R retention requirements. The deleted reports pertained to
    criminal activity such as Be On the Look Out (BOLO) reports; resolved activity
    with no DoD threat or foreign terrorist link, such as innocent photography by
    tourists or private citizens; bomb threats; and other activity not related to potential
    international terrorists.

    Some of the TALON reports deleted from the Cornerstone database were related
    to domestic anti-war or counter-military recruitment groups’ protests and
    demonstrations. The TALON reports were manually reviewed by both CIFA and
    DoD IG personnel. CIFA identified TALON reports that referenced “protest” and
    “demonstration.” Our review also included TALON reports that discussed
    vandalism, destruction, theft, and/or violence against a recruitment center or a
    recruiter as protests and demonstrations.

    The deleted TALON reports for this audit and other reviews were converted into
    text documents and are maintained on compact disks controlled by the CIFA
    General Counsel.

    CIFA Results. CIFA identified 186 of the 1,131 TALON reports as protests and
    demonstrations and 945 that did not relate to protests and demonstrations.

    DoD IG Results. We reviewed the 1,131 TALON reports that CIFA deleted
    from the Cornerstone database and identified 263 reports related to protests and
    demonstrations and 868 reports that did not. Because 117 of the 868 reports were
    from outside the United States and did not contain U.S. person information,
    751 TALON reports originating in the United States do not relate to protests and
    demonstrations.

    Analysis of the 263 TALON reports on protests and demonstrations showed that
    157 of the reports identified an action or event that took place. Of the
    157 TALON reports, 75 had criminal actions occur that resulted in arrests,
    required court appearances, violence, destruction, and required police
    intervention. Given that about half of the protest and demonstration events had
    criminal actions occur, creating TALON reports to inform local commanders of
    protests and demonstrations planned for their vicinity appears to be justified and


                                          10
           reinforces the reason why those reports were created for force protection and law
           enforcement purposes and not as intelligence information.


DoD IG Review of TALON Reports for U.S. Person
  Information and for U.S. Persons Identified
           We reviewed the 1,131 TALON reports for U.S. person information and to
           determine how many U.S. persons were identified. Any information that pertains
           to a U.S. person is U.S. person information; however, if a U.S. person is not
           identified, the same information is not U.S. person information. Therefore, all
           potential U.S. person information must be reviewed and a U.S. person identified
           before the final decision can be made as to what is U.S. person information in
           each report.

           Definition. A U.S. person is defined in section 1801 (i), title 50, United States
           Code (50 U.S.C. 1801(i)), as a citizen of the United States, an alien lawfully
           admitted for permanent residence, an unincorporated association in which a
           substantial number of members are citizens of the United States or aliens lawfully
           admitted for permanent residence, or a corporation which is incorporated in the
           United States, but does not include a corporation or an association which is a
           foreign power.

           Identification of U.S. Persons. During the CIFA review of the TALON reports
           to identify U.S. person information, officials debated what information
           specifically identified a U.S. person. Although CIFA ultimately decided upon a
           stringent interpretation during its review of TALON reports, the officials changed
           what information identifies a U.S. person. CIFA decided that any potential U.S.
           person information would be identified as U.S. person information, whether the
           subject of a TALON, a location, a point of reference, the source who provided the
           information, or military and law enforcement personnel.

           During our review of the TALON reports, we did not use the CIFA definition to
           identify U.S. persons. We primarily designed our definition to provide an
           accurate response to the intent of the congressional questions. The DoD IG did
           not include U.S. person information in the TALON reports that identify ancillary
           personnel. For example, we did not include the people who provided or handled
           the information, most of whom were Government employees, or consider data
           related to victims, sources of information, witnesses and report creators as U.S.
           person information.

           For example, if a TALON report stated:
                   John Doe witnessed a man throw an object at the DoD IG building,
                   then jump into a blue Chevy sedan and speed away down Army Navy
                   Drive. The Chevy turned left just past the Embassy Suites.9


9
    This example was created to demonstrate the difference between the determinations made by CIFA and
    the DoD IG. This is not a real TALON report.



                                                    11
           The CIFA review would have identified this report as containing U.S. person
           information, resulting from John Doe, Chevy, and/or Embassy Suites. We would
           have determined there was no U.S. person information because John Doe was the
           witness who reported the incident so the information was obtained with consent,
           Chevy was the type of car and not a company we are interested in, and Embassy
           Suites is just a point of reference and not a business being identified.

           Application. Many CIFA personnel reviewed the 1,131 TALON reports from
           September 2005 through January 2006.10 As a result, the determination of
           TALON reports that contained U.S. person information was not consistent.
           During our review, one auditor analyzed all 1,131 TALON reports and did not
           determine U.S. person information until the last step to ensure consistency.

           Results. CIFA identified 186 TALON reports on protests and demonstrations,
           with 82 of the reports containing U.S. person information. CIFA did not identify
           the type or quantity of U.S. persons identified in the 82 TALON reports because
           of time constraints and the labor intensive nature of the review. CIFA only
           tracked “yes” or “no” for U.S. person information in the TALON report.

           DoD Directive 5200.27 discusses U.S. person information for organizations and
           individuals not affiliated with the DoD, therefore, we did not include military
           personnel. However, we did not exclude DoD civilian or DoD contractor
           employees or DoD contractors. As a result, some of the individuals and
           businesses identified may actually be exempt because of their DoD affiliation, in
           which case, these numbers may be overstated. We reviewed all potential U.S
           person information and categorized the number of U.S. persons identified in the
           1,131 TALON reports into individuals, organizations, and businesses.

                   U.S. Person Information. Table 1 shows that we identified 263 TALON
           reports on protests and demonstrations, with 92 of these reports containing U.S.
           person information. The 117 reports that originated outside of the United States
           did not have U.S. person information. We also identified an additional
           242 TALON reports that contained U.S. person information. In total, we
           identified 334 TALON reports that identified U.S. persons.

                  U.S. Persons. As shown in Table 2, DoD reported and maintained
           information on 571 U.S. persons in 334 TALON reports. There are 142 U.S.
           persons identified in the 92 “protest and demonstration” TALON reports and
           429 U.S. persons identified in the “other” 242 TALON reports. The U.S. person
           information included subjects; sources; witnesses; victims; interviewees; illegal




10
     The CIFA personnel began their review in September 2005; TALON reports were deleted from
     Cornerstone from December 2, 2005, through January 18, 2006.



                                                   12
   Table 1. TALON Reports Containing U.S. Person Information
    Deleted From December 2, 2005, through January 18, 2006


                                              Yes       No          Total

   Protests and demonstrations                 92       171           263

   Not protest or demonstration               242       509           751

   Not in the United States                             117           117

      Total                                   334       797         1,131


aliens; famous people referenced for quotes, positions and scheduled appearances;
law enforcement officials involved; and the agent creating the TALON.
Therefore, we did not identify as U.S. person information:

       •   the sources, because they provided the information;

       •   victims or witnesses, if they were the source;

       •   famous people referenced for quotes, positions, and scheduled
           appearances because they weren’t included as themselves; or

       •   law enforcement officials doing their job.

       Table 2 shows the number of U.S. persons identified by category.


       Table 2. U.S. Persons Identified in the 334 TALON Reports

                               Protests and
                              Demonstrations           Others
                               (92 Reports)         (242 Reports)      Total

    Individuals                          38                 342        380

    Organizations                     104                     6        110

    Company or business                                      81         81

       Total                          142                   429        571




                                    13
Current TALON Reporting
    Since the March 30, 2006, Deputy Secretary of Defense memorandum, “Threats
    to the Department of Defense,” was issued, TALON reports are reporting possible
    international terrorist activity only and are being retained in accordance with DoD
    Regulation 5240.1-R. The average number of TALON reports generated has
    dropped from 49 to 7 per month. As previously stated, CIFA stringently reviews
    a TALON report before it is entered into the Cornerstone database, which resulted
    in 607 reports being rejected as of April 2007.

    The TALON reports were initially used to document and immediately
    disseminate potential threat information to DoD personnel, facilities, and
    resources for commanders at all levels that have force protection responsibilities.
    There is still a need for law enforcement and force protection information to be
    generated and disseminated.

    Recognizing this need, on October 12, 2006, the Deputy Secretary of Defense
    issued a memorandum, “DoD Integrated Threat Reporting Working Group,”
    designating the Assistant Secretary of Defense (Homeland Defense) as the
    principal staff assistant for reporting threats to force protection. The Assistant
    Secretary was tasked to develop Department-wide guidance for documenting,
    storing, and exchanging force protection information. The Under Secretary of
    Defense for Intelligence was tasked to convene a separate working group to
    discuss law enforcement equities (Appendix H.)

    In April 2007, the Under Secretary of Defense for Intelligence requested that the
    Secretary of Defense terminate the TALON program because the results of the
    last year did not merit continuing the program as currently constituted,
    particularly in light of its image in the Congress and the media.

    As a result of the ongoing management actions, this report does not include any
    recommendations.




                                         14
Appendix A. Scope and Methodology
   We performed this audit in response to congressional requests on December 30,
   2005, and January 12, 2006. We reviewed the Cornerstone database, TALON
   reports, the TALON report process, the JPEN report process, the pertinent laws
   and regulations, and answered the seven questions from Congresswoman Lofgren
   and the question from Congresswoman Eshoo.

   We visited, contacted, or conducted interviews with officials from the Office of
   the Deputy Under Secretary of Defense for Counterintelligence and Security,
   CIFA, USNORTHCOM, and the generating organizations.

   We reviewed all 1,131 TALON reports deleted by CIFA from December 2, 2005,
   through January 18, 2006. The reports were removed from the Cornerstone
   database and saved as text documents for this audit and other required reviews.
   The CIFA General Counsel maintains control of the compact disks.

   Each of the 1,131 TALON reports was opened and reviewed, and pertinent
   information was copied to a spreadsheet for standardization that allowed analysis.
   The 117 TALON reports discussed events that did not occur in the United States
   and did not contain U.S. person information, so no further analysis was
   performed. The remaining 1,014 TALON reports were separated into protests
   and demonstrations (263 TALON reports) and other (751 TALON reports). Each
   of the 263 TALON reports on protests and demonstrations were categorized as an
   event that took place, that was being planned, or as potential events or “how to”
   information; 157 were events that took place. We identified 75 of the
   157 TALON reports on protest and demonstration events that took place that
   made arrests, required court appearances, were violent or destructive, or required
   police intervention. After agreeing with the DoD IG General Counsel on what
   information identified a U.S. person, the TALON reports containing U.S. person
   information were identified and the number of U.S. persons identified was
   calculated by type of information.

   We performed this audit from February 2006 through May 2007 in accordance
   with generally accepted government auditing standards.

   Scope Limitations. We limited most of our review to the 1,131 TALON reports
   that CIFA deleted from the Cornerstone database from December 2, 2005,
   through January 18, 2006. Given the changes implemented as a result of the
   Deputy Secretary of Defense memorandum and the resulting decrease in TALON
   reporting, we believe that these deleted TALON reports had the highest risk of
   noncompliance with laws or regulations.

   Because 334 of the 1,131 TALON reports contain U.S. person information, we
   did not make copies. Our audit working papers do not have any TALON reports.
   Our analysis of the TALON reports is recorded on spreadsheets, with U.S. person
   information deleted. The specific data contained in the spreadsheets can be
   verified to the TALON report data by the TALON report number.




                                       15
The USNORTHCOM JPEN deleted all TALON reports in November 2005 and
terminated JPEN in June 2006. This system did not have the capability to archive
records so all of the information was lost. Therefore, we could not compare the
information in JPEN to the 1,131 TALON reports.

The scope of the audit was also limited in that we did not review management
controls.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit. The TALON reports reviewed had been removed from the
Cornerstone database and were saved as text documents or paper copies. The
number of monthly TALON reports received was calculated by counting the
number of reports with a report date in each month.

Government Accountability Office High-Risk Area. The Government
Accountability Office identified several high-risk areas in DoD. This report
provides coverage of the Establishing Appropriate and Effective Information-
Sharing Mechanisms to Improve Homeland Security high-risk area.

Prior Coverage. During the last 4 years, the Assistant to the Secretary of
Defense for Intelligence Oversight issued one report related to TALON reports.

Assistant to the Secretary of Defense for Intelligence Oversight Report,
“Intelligence Oversight Review of the TALON Reporting System,” May 25, 2006




                                   16
Appendix B. Congressional Request from
            Congresswoman Zoe Lofgren




                    17
18
19
Appendix C. Congressional Request from
            Congresswoman Anna G. Eshoo




                    20
21
22
Appendix D. Response to Congresswoman
            Lofgren
   In a letter to the DoD IG dated December 30, 2005, Congresswoman Lofgren
   asked seven questions about U.S. person information contained in the TALON
   reports that specifically related to domestic anti-war or counter-military protests
   and demonstrations and the legal basis for the TALON reports.

   Congresswoman Lofgren’s request mentioned a possible violation of the Foreign
   Intelligence Surveillance Act (FISA) and also detailed information on retaining
   information regarding U.S. persons. To adequately answer the request, we
   included the following background information on FISA and the methodology we
   used to categorize U.S. person information.

   FISA. Public Law 95-511, “Foreign Intelligence Surveillance Act of 1978,”
   October 25, 1978 (as amended), provides a statutory structure to be followed
   where electronic surveillance, physical searches, or pen registers or trap devices
   for foreign intelligence gathering purposes are contemplated. FISA creates
   enhanced procedural protections, where a U.S. person is involved, to protect
   personal liberties safeguarded by the First and Fourth Amendments while
   providing a means to protect national security interests. The Act provides for
   surveillance of American citizens and others for whom the court determines that
   there is probable cause that they are “agents of a foreign power” as defined in the
   statute. The Act sets up a Foreign Intelligence Surveillance Court to authorize
   such surveillance.

   None of the TALON reports reviewed were created as the result of intelligence
   surveillance. The TALON reports were developed from information provided to
   security, law enforcement personnel at military facilities, and/or intelligence
   personnel. The information was primarily from concerned individuals such as
   citizens; military personnel, both performing their official duties and as citizens;
   and law enforcement personnel. Therefore, FISA does not apply to the TALON
   reports.

   U.S. Person. Our definition of a U.S. person was primarily designed to provide
   an accurate response to the intent of the congressional questions. We did not
   include U.S. person information in the TALON reports that identify ancillary
   personnel. For example, we did not include the people who provided or handled
   the information, most of whom were Government employees, or consider data
   related to victims, sources of information, witnesses and report creators as U.S.
   person information.




                                        23
           For example, if a TALON report stated:
                    John Doe witnessed a man throw an object at the DoD IG building,
                    then jump into a blue Chevy sedan and speed away down Army Navy
                    Drive. The Chevy turned left just past the Embassy Suites.11

           We would have determined there was no U.S. person information because John
           Doe was the witness who reported the incident so the information was obtained
           with consent, Chevy was the type of car not a company we are interested in, and
           Embassy Suites is just a point of reference not a business being identified.

           Question 1. What types of information has DoD collected on U.S. persons?
           What types of information has DoD collected on U.S. persons belonging to
           domestic anti-war or counter-military recruitment groups?

           Answer. Any information that pertains to a U.S. person is U.S. person
           information; however, if a U.S. person is not identified, the same information is
           not U.S. person information. Therefore, all potential U.S. person information
           must be reviewed and a U.S. person identified before the final decision can be
           made as to what is U.S. person information in each report.

           This audit reviewed only the records generated as part of the TALON program.
           Of the 1,131 TALON reports deleted by CIFA from December 2, 2005, through
           January 18, 2006, the audit identified 263 TALON reports related to protests and
           demonstrations. U.S. person information was present in 92 of those reports. The
           information included in the TALON reports that we reviewed pertain to subjects;
           sources; witnesses; victims; interviewees; illegal aliens; famous people referenced
           for quotes, positions and scheduled appearances; law enforcement officials
           involved; and the agent creating the TALON. As discussed in Table 2 of the
           report, not all types of information included in the reports identify U.S. persons.

           The TALON reports were manually reviewed by CIFA and DoD IG personnel.
           Many CIFA personnel reviewed the 1,131 TALON reports from September 2005
           through January 2006, and identified 186 TALON reports that referenced
           “protest” and “demonstration.” Our review, which was performed by one auditor
           to ensure consistency, also included TALON reports that discussed vandalism,
           destruction, theft, and/or violence against a recruitment center or a recruiter as
           protests and demonstrations. We identified 263 protest and demonstration
           TALON reports rather than the 186 identified by CIFA, because we read all
           TALON reports and did not just search for the terms “protest” and
           “demonstration.” The inconsistency created by the multiple personnel involved
           in the CIFA review and the difference in the definition of protest and
           demonstration TALON reports also affected the difference in the numbers.

           All TALON Reports. We identified six types of potential U.S. person
           information and the categories in the TALON reports reviewed. Table 3 shows
           the six types.


11
      This example was created to demonstrate the difference between the determinations made by CIFA and
     the DoD IG. This is not a real TALON report.



                                                     24
     Table 3. Types and Categories of Potential U.S. Person Information

       Types                                       Categories
 Names                  Individual: social security number, date of birth, place of
                        birth, and/or descriptions (sex, hair color, height, weight,
                        nationality, ethnical appearance), and/or position or title or
                        rank*
                        Organization or group
                        Business or company
 Addresses              Street, city, and/or state
 Phone numbers          Home, work (business or company), and/or cell
 Vehicles               Descriptions: color, model, and/or distinguishing factors
                        License plates: state and/or number
                        Owner (see names)
 E-mail addresses
 Websites

 *
 Any of these categories may be recorded without the name of the individual.


Protests and Demonstrations. The types of information contained in the TALON
reports on protests and demonstrations included the names of individuals and
organizations, phone numbers, addresses, e-mail addresses and websites
associated with the protestors. Phone numbers and addresses were only recorded
when it was contained in an e-mail or website as a contact reference. Recorded
e-mail addresses were obtained from the e-mail sender or provided in an e-mail or
website as a contact reference. Websites were recorded when they were provided
in an e-mail as an information source.

Question 2. What overt methods has DoD employed to collect this
information? What non-overt methods has DoD employed to collect this
information?

Answer. DoD did not employ either overt or covert intelligence methods to
obtain the information contained in the TALON reports. Our review of the source
information contained on each TALON report indicated they were developed
from information provided to the security and law enforcement personnel at
military facilities, and/or intelligence personnel. The information was from
concerned individuals such as civilians; military personnel, both performing their
official duties and as citizens; and law enforcement personnel. Concern arises
when individuals hear, see, or are informed about suspicious incidents being


                                         25
planned, that happen at a military facility, or that involve military personnel.
Concern also arises when citizens see suspicious activity and don’t know what to
do about it. Most citizens in the vicinity of military facilities knew a member of
the military or another individual working for or with the DoD. These individuals
reported suspicious incidents to DoD contacts rather than through formal law
enforcement channels.

TALON reports were established to create an avenue for reporting all types of
suspicious incidents to DoD personnel, facilities, and resources. Additional
information was added to reports if the results were posted or if the incident
required followup or investigation for law enforcement purposes.

U.S. person information contained in the TALON reports was not reported for
intelligence purposes. The information was collected for law enforcement and
force protection purposes. Even the TALON reports generated by the Army 902d
Military Intelligence Group from information received from a special agent of the
Federal Protective Service, Department of Homeland Security was not
intelligence information because it was provided for law enforcement and force
protection purposes.

Question 3. What types of information on U.S. persons does DoD store as
part of its CIFA or TALON programs?

Answer. Table 3 summarizes the type of U.S. person information in the TALON
reports. The Cornerstone database included about 13,000 TALON reports, as of
December 2005. As discussed in the report, the database was extensively
reviewed to delete TALON reports that no longer had an analytical value as well
as those initially deleted from December 2, 2005, through January 18, 2006.

The number of TALON reports being created decreased significantly after the
Deputy Secretary Defense issued the March 30, 2006, memorandum, “Threats to
the Department of Defense,” which directed that the TALON Reporting System
should report only information on possible international terrorist activity.
Currently, all TALON reports are being retained in accordance with DoD
Regulation 5240.1-R. “Activities of DoD Intelligence Components That Affect
United States Persons,” December 1982.

In January 2007, Cornerstone was queried for the number of TALON reports
received each month. TALON reports deleted from Cornerstone were not
included in the counts, which would understate the number of TALON reports
received. On average, 49 TALON reports were submitted each month in the
13 months prior to the March 30, 2006, Deputy Secretary of Defense
memorandum. However, since then, the average dropped to seven TALON
reports each month.

The USNORTHCOM JPEN deleted all TALON reports on November 30, 2005,
and the system was turned off in June 2006. This system did not have the
capability to archive records; as a result, all of the information was lost.




                                    26
Question 4. On how many distinct U.S. persons has DoD collected
information? On how many such persons does DoD currently retain
information?

Answer. We reviewed all of the 1,131 TALON reports that were deleted from
December 2, 2005, through January 18, 2006, and found that DoD reported and
maintained information on 571 U.S. persons in 334 TALON reports (Table 1).
Table 4 (Table 2 in the finding discussion, repeated here) shows the number of
U.S. persons identified by category for the 334 reports.


       Table 4. U.S. Persons Identified in the 334 TALON Reports


                               Protests and
                              Demonstrations        Others
                               (92 Reports)      (242 Reports)     Total

    Individuals                          38              342        380

    Organizations                     104                  6        110

    Company or business                                   81         81

       Total                          142                429        571


The TALON reports currently in the Cornerstone database were reviewed by
CIFA analysts who determined there is a reasonable belief that a link exists with
“international terrorist activity.” The TALON reports contain actions such as
tests of security and surveillance.

Question 5. On how many distinct U.S. persons consisting of or belonging to
domestic anti-war or counter-military recruitment groups has DoD collected
information? On how many distinct U.S. persons consisting of or belonging
to domestic anti-war or counter-military recruitment groups does DoD
currently retain information?

Answer. Of the 263 TALON reports on protests and demonstrations in the
United States, 92 (Table 1 in the report) identified 142 U.S. persons
(38 individuals and 104 groups or organizations) (Table 2 repeated above). The
other 171 reports on protests and demonstrations did not identify any U.S. person
information or distinct organizations or individuals.

Question 6. For information on U.S. persons retained by DoD, provide a
percentage breakdown of the amount of data points collected pursuant to
each prong of Procedure 2.3. [DoD Regulation 5240.1-R] For information on
U.S. persons who belong to domestic anti-war or counter-military
recruitment groups retained by DoD, provide a percentage breakdown of the
amount of data points collected pursuant to each prong of Procedure 2.3.



                                    27
Answer. Prior to March 30, 2006, the U.S. person information in TALON
reports was not reported or maintained for intelligence purposes, as directed by
Executive Order 12333, “United States Intelligence Activities,” December 4,
1981, with implementation by DoD Regulation 5240.1-R, “Procedures Governing
the Activities of DoD Intelligence Components That Affect United States
Persons,” December 1982. Rather, the information was reported and maintained
for law enforcement as authorized by DoD Directive 5200.27, “Acquisition of
Information Concerning Persons and Organizations Not Affiliated with the
Department of Defense,” January 7, 1980. Therefore, we cannot provide
percentage breakdown of the information collected by Procedure 2.3 of DoD
Regulation 5240.1-R

Question 7. Where non-public information on U.S. persons has been
collected without their consent, has DoD in every instance obtained a
warrant from a court of lawful jurisdiction? If not, on what legal authority
has DoD obtained this information in each instance, and how is this
information collection consistent in each instance with DoD 5240 1-R?

Answer. Non-public information was collected when criminal checks were run
on subjects of potentially criminal actions. The TALON reports for protests and
demonstrations did not contain non-public information; we determined that any
name, phone number, address, or e-mail address provided as a point of contact in
an e-mail, website, flier, brochure, or newspaper article is public information.
The TALON reports were developed based on the Deputy Secretary of Defense
memorandum, “Collection, Reporting, and Analysis of Terrorist Threats to DoD
Within the United States,” May 2, 2003. The memorandum wanted input of non-
validated, domestic, suspicious activity from intelligence, counterintelligence, law
enforcement, and force protection sources. No other DoD TALON policies or
guidance were issued prior to March 2006. The Services developed
implementation policy that treated TALON reports as a law enforcement tool.
DoD TALON reports, including those on protests and demonstrations, were
generated for law enforcement and force protection purposes, not for intelligence
purposes. Collection of such data for law enforcement or force protection is
permitted under DoD Directive 5200.27.




                                    28
Appendix E. Response to Congresswoman Eshoo
   In a letter to the DoD IG dated January 12, 2006, Congresswoman Eshoo
   requested that the DoD IG look into DoD activities at the University of
   California, Santa Cruz (UCSC) after the Chancellor of UCSC contacted her with
   concerns about the media reports that DoD was conducting an investigation of a
   peaceful campus protest at UCSC.

   Question. I am hereby requesting you to look specifically into the DoD
   activities at the University of California, Santa Cruz (UCSC) and report your
   findings to me as soon as possible.

   Answer. The only UCSC protest reported in TALON reports was the protest
   against military recruiters that occurred on April 5, 2005. We examined all of the
   TALON reports related to this protest. Two reports specifically discussed the
   UCSC protest, and two other reports referenced the UCSC protest as an example
   of why military recruiters needed to be careful.

   One TALON report announced the planned protest at UCSC and warned that
   recent protests along the West Coast have drawn an estimated 200 to
   400 protesters, with one incident in January 2005 resulting in police escorting the
   military recruiters off the campus. A second TALON report followed up on the
   protest at UCSC and stated that the protesters overpowered security at the event
   and that UCSC staff escorted the recruiters out of the area for their safety.

   Two TALON reports are notification of weekly planned protests at the Atlanta,
   Georgia recruiting offices. These TALON reports use the UCSC protest to warn
   recruiters about a group involved because nearly 300 UCSC students and
   community allies shut down the annual career fair and demanded that recruiters
   leave. In addition, two of the recruiters’ cars were vandalized while parked on the
   UCSC campus.

   A comparison of the TALON reports with newspaper reports of the UCSC protest
   shows nearly identical details (300 protesters, a career-center staffer slightly
   injured, and some tires of the recruiters’ cars were slashed), which validate the
   accuracy of the TALON report details. The newspaper reports also verify why
   the TALON reports are required for law enforcement and force protection
   purposes, and as law enforcement records, they are created and maintained
   legally.




                                       29
Appendix F. Deputy Secretary of Defense
            May 2, 2003, Memorandum




                      30
31
Appendix G. Deputy Secretary of Defense
            March 30, 2006, Memorandum




                    32
33
Appendix H. Deputy Secretary of Defense
            October 12, 2006, Memorandum




                    34
35
36
37
Appendix I. Deputy IG for Intelligence
            June 20, 2006, Memorandum




                     38
39
Appendix J. Director, Joint Staff July 24, 2006,
            Memorandum




                        40
Appendix K. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Policy
  Assistant Secretary of Defense for Homeland Defense and Americas’ Security Affairs
      Deputy Assistant Secretary of Defense for Homeland Defense
Under Secretary of Defense for Intelligence
  Deputy Under Secretary of Defense (Counterintelligence and Security)
General Counsel of the Department of Defense
Assistant to the Secretary of Defense (Intelligence Oversight)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Commanding General, U.S. Army Intelligence and Security Command
Provost Marshall General
Commanding General, U.S. Army Criminal Investigation Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Naval Criminal Investigative Service

Department of the Air Force
Auditor General, Department of the Air Force
Commander, Air Force Office of Special Investigations

Combatant Command
Commander, U.S. Northern Command
   Inspector General, U.S. Northern Command
Inspector General, U.S. Joint Forces Command




                                          41
Other Defense Organizations
Director, Counterintelligence Field Activity
   General Counsel, Counterintelligence Field Activity

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform
House Committee on Homeland Security
House Permanent Select Committee on Intelligence




                                          42
Counterintelligence Field Activity Comments




                      43
Team Members
The Department of Defense Office of the Deputy Inspector General for
Intelligence prepared this report. Personnel of the Department of Defense Office
of Inspector General who contributed to the report are listed below.

Shelton R. Young
Sean Mitchell
Lois A. Therrien
Averel E. Gregg
Dana Johnson
Tomica Q. May
